                                    SOCIAL SECURITY
MEMORANDUM


Date:   December 17, 2003                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance Audit of the Social Security Administration’s Main Complex Guard
        Contract (A-15-03-23043)


        The attached final report presents the results of our audit. Our objectives were to
        determine whether the Social Security Administration’s (SSA) Office of Facilities
        Management properly monitored its guard contract for SSA’s main complex and
        whether the contractor complied with the contract terms and applicable regulations.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                    James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    PERFORMANCE AUDIT OF THE
 SOCIAL SECURITY ADMINISTRATION’S
  MAIN COMPLEX GUARD CONTRACT


  December 2003      A-15-03-23043




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
The objectives of the audit were to determine whether the Social Security
Administration’s (SSA) Office of Facilities Management properly monitored its guard
contract for SSA’s main complex and whether the contractor complied with the contract
terms and applicable regulations.

BACKGROUND
The guard service contract is a critical component of SSA’s overall physical security
program. Recent media attention and world events have spurred public and
congressional concerns that protection of the Federal infrastructure is a high priority.
Accordingly, the Office of the Inspector General initiated a review of SSA’s main
complex security guard contract.

SSA awarded a contract to Holiday International Security, Incorporated (Holiday) to
provide guard services at SSA’s main complex in Woodlawn, Maryland. SSA’s project
officer is responsible for monitoring the performance of this contract.

RESULTS OF REVIEW
We determined that there was noncompliance with the terms and conditions of the
contract by both SSA and Holiday. Specifically, we found SSA had not performed
required suitability redeterminations timely and Holiday did not provide sufficient training
for the guards or provide the proper supervision of duty posts. SSA also granted
waivers to guards to work at armed positions without a firearm. In addition, we could
not substantiate that Holiday provided required relief breaks to the guards. Lastly,
guards did not consistently check badges of individuals entering the building. Sufficient
oversight by SSA management may have detected and corrected these deficiencies
prior to our review.

CONCLUSION AND RECOMMENDATIONS
Holiday is required to maintain a secure environment in which the general public and
Government employees can conduct business with confidence. SSA is responsible for
ensuring that Holiday provides services in accordance with the terms and conditions of
the contract.

We have made six recommendations to SSA that, if implemented, will improve
compliance with the terms and conditions of the contract. Our recommendations
include that SSA improve its policies and procedures for suitability redeterminations,
ensure the contractor provides guards the required training, and ensure the contractor

Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                     i
increases its supervisory inspections. We also recommend that SSA reevaluate giving
waivers for unarmed guards to staff positions requiring firearms, more closely monitor
implementation of break policies, and emphasize that guards should follow badge
verification procedures.

AGENCY COMMENTS
SSA agreed with our recommendations.




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                   ii
                                                        Table of Contents
                                                                                                                    Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

Suitability Redeterminations Were Not Performed Timely.......................................3

Training Was Inadequate ........................................................................................4

SSA Lacks Assurance Guards Were Properly Supervised .....................................6

Guards Posted Without Firearms ............................................................................6

Guard Breaks Undocumented.................................................................................7

Guards Not Checking Badges.................................................................................8

Other Matters ..........................................................................................................9

CONCLUSIONS AND RECOMMENDATIONS.....................................................12

APPENDICES

Appendix A – SSA Comments

Appendix B – OIG Contacts and Staff Acknowledgements




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)
                                                                 Acronyms

 ARC                       American Red Cross
 CPR                       Cardiopulmonary Resuscitation
 CGIM                      Contract Guard Information Manual
 FLETC                     Federal Law Enforcement Training Center
 FPS                       Federal Protective Service
 GAO                       General Accounting Office
 Holiday                   Holiday International Security, Incorporated
 OAG                       Office of Acquisitions and Grants
 OFM                       Office of Facilities Management
 OIG                       Office of the Inspector General
 OPSS                      Office of Protective Security Services
 PO                        Project Officer
 SSA                       Social Security Administration
 Form SSA-4072             Contract Guarding Duty Register




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)
                                                                  Introduction
OBJECTIVE
The objectives of the audit were to determine whether the Social Security
Administration’s (SSA) Office of Facilities Management (OFM) properly monitored its
guard contract for SSA’s main complex and whether the contractor complied with the
contract terms and applicable regulations.

BACKGROUND
OFM manages SSA-wide facilities management programs. OFM develops,
implements, and evaluates SSA’s environmental protection, safety, and protective
services. The Office of Protective Security Services (OPSS), a component of OFM,
directs SSA’s physical and protective security programs. A division within OPSS,
specifically, the Division of Security Program Services is also responsible for policy
development, the establishment of security plans and oversight of security guard
contracts.

The Office of Acquisitions and Grants (OAG) is responsible for SSA procurement and
contracting functions. OAG’s contract officer is responsible for the award and
administration of SSA contracts. OAG appoints an Agency authorized representative as
the Government project officer (PO). Thus, the PO is responsible for the technical
administration of the contract.

On April 21, 2002, OAG awarded a 1-year fixed-price contract with four 1-year options
to Holiday International Security, Incorporated (Holiday)1 to provide armed and unarmed
guard services at the SSA Main Complex in Woodlawn, Maryland. Holiday was to
maintain a secure environment in which the general public and Government employees
can conduct business with confidence.

Recent media attention and world events have prompted public and congressional
concerns that protection of the Federal infrastructure is of high priority. Contractor
guard service is a critical component of SSA’s overall physical security program.
Accordingly, the Office of the Inspector General (OIG) initiated this security guard
contract review.

SCOPE AND METHODOLOGY
To accomplish our audit objectives, we reviewed the Holiday contract to assess the
contractor’s ability to meet and comply with the contract requirements. We met with the
PO and discussed the required contract deliverables. We also reviewed the records
1
 Subsequent to our fieldwork, on August 11, 2003, we were informed by the Contracting Officer that
Holiday was acquired by USProtect Corporation on June 6, 2003.


Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                               1
used for monitoring the contractor’s performance and assessed whether the PO was
performing duties as stated in the terms and conditions of the contract.

We interviewed 20 randomly selected guards. We conducted post observations and
observed three different shift changes at the SSA complex. We also met with other
Holiday staff and reviewed its contract records applicable to the SSA contract.
Specifically, we:

   •   Reviewed the employee training manual and the training records of the guards;

   •   Reviewed Holiday’s payroll records for the months of July, August and
       December 2002 and February 2003;

   •   Reviewed the Contract Guarding Duty Registers (Form SSA-4072) for the
       months of August and December 2002 and February 2003; and

   •   Reviewed Holiday’s quality control program to ensure it conforms to the contract
       requirements.

Additionally, we accepted sworn statements made to OIG criminal investigators from
guards who came forward.

We also reviewed the contractor’s records stored at the SSA main complex. These
records include the licenses required of the contractor and firearm permits required of
the guards as well as the firearms’ records. We verified that the weapons were
maintained, stored, and inventoried according to the contract requirements. We also
verified whether the qualifications of the guards matched those set forth by the Federal
Law Enforcement Training Center (FLETC) Practical Pistol Course.

We conducted our audit in accordance with generally accepted government auditing
standards. Our fieldwork was performed at SSA’s Headquarters and at
Holiday’s Headquarters in Silver Spring, Maryland, from November 2002 through
August 2003.




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                2
                                                  Results of Review
We determined that SSA needs to strengthen its oversight of the guard contract. We
found SSA had not performed required suitability redeterminations timely and Holiday
did not provide sufficient training for the guards or provide the proper supervision of duty
posts. SSA also granted waivers to guards to work at armed positions without a
firearm. In addition, we could not substantiate that Holiday provided required relief
breaks to the guards. Lastly, guards did not consistently check badges of individuals
entering the building. Sufficient oversight by SSA management should have allowed
these conditions to be detected and corrected prior to our review.

SUITABILITY REDETERMINATIONS WERE NOT PERFORMED TIMELY
Suitability refers to a person’s character traits and past conduct and is separate from
his/her ability to fulfill the job qualification requirements, such as experience, education,
and skills. Background investigations and suitability reviews are used to prevent
unsuitable employees and contractors from accessing SSA facilities and sensitive
information.

The contract states that every contract employee must have an initial suitability
determination and a subsequent suitability redetermination review every 2 years.2
SSA’s OPSS is responsible for conducting and completing the suitability reviews and
the PO is responsible for ensuring that all contract employees have updated suitability
determinations. Guards hired by Holiday who had prior suitability determinations while
they worked for the prior contractor, did not require new initial suitability determinations.
However, SSA was required to perform redeterminations 2 years from their last
determination.

                           As part of our audit, we interviewed 20 guards. We also
Suitability
                           reviewed their personnel/training records maintained by the
Redeterminations
                           contractor. We found that 7 of the 20 guards had a suitability
Were Overdue
                           determination completed as required by the contract. We also
found the remaining 13 guards had an initial suitability determination completed, but no
redetermination was performed as required by the contract. The 13 guards were
formerly employed by the prior security contractor and all had initial suitability
determinations. However, no suitability redeterminations had been performed within
24 months of the prior suitability determinations as required by the contract. We found
their suitability redeterminations were between 10 and 13 months overdue. We verified
our finding through inspection of the OPSS Suitability Section’s and the contractor’s
records. During our review of the Suitability Section’s records, we learned that 4 of the
13 guards’ suitability redeterminations were in process.


2
    Contract Number 0600-02-60000 section D-6 (c) (4) “Timeframe for Suitability Determination.”


Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                             3
 SSA needs to develop policies and procedures that ensure suitability redeterminations
 are performed timely as required by the contract.

 TRAINING WAS INADEQUATE
 The contract states:

       “To be eligible to perform under this contract, each contract employee (including
       supervisory and replacement employees) shall meet the training requirement
       specified below3…. Prior to contract employees being assigned to this contract, the
       contractor shall develop and provide Basic Training instructions with the information
       contained in the CGIM [Contract Guard Information Manual] and as specified in
       Attachment E-2.”4

 Attachment E-2 “Description of Training to be Provided by the Contractor” lists three
 specific training courses and related testing:


         Subject            Hours                                    Description

Emergency Medical              8      All guards must be trained by American Red Cross (ARC)
                                      certified instructors in emergency first-aid procedures, Heimlich
                                      maneuver and receive an ARC “Multi Media Standard First Aid
                                      Certificate (Form 1730).” Emergency first-aid procedures include:
                                      immediate action to control bleeding; recognition of first-aid
                                      procedures for convulsion, epilepsy, stroke, heart attack, head
                                      [sic] prostration, and other disorders.
Cardiopulmonary                8      Guards must be trained by ARC certified instructors in CPR and
Resuscitation (CPR)                   receive an “ABC” “Race for Life Certificate” (Form 1747). CPR
                                      procedures include basic procedures for life support and cardiac
                                      arrest relief. All guards must be CPR certified annually…
Occupational Safety            3      Guards must have necessary skills to deal with the hazards of
and Health                            exposure to blood borne pathogens as follows: explanation of the
Administration                        blood borne pathogen standards; how blood diseases can be
Standard 29 CFR                       transmitted; employee hazard recognition; ways to prevent the
1910.1030.,                           exposure; required personnel protective equipment; Hepatitis B
Occupational Blood                    vaccine; and procedures to follow for emergencies.
Borne Pathogens
Examination/                   3      Written examinations will be given to determine knowledge and
Examination Review                    understanding of academic subject matter. … Examination
                                      review will provide the contract guards an opportunity to compare
                                      graded answer sheets with the approved solutions.


 3
     Contract Number 0600-02-60000 section C-6 (a) “Training” “General.”
 4
     Contract Number 0600-02-60000 section C-6 (b) “Contractor Provided Training.”


 Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                    4
                                We obtained sworn statements from two guards who
    SSA Lacks Assurance         stated that they had received less than 30 minutes
    Guards Were                 training in CPR and first aid. Fourteen out of the
    Adequately Trained          20 guards’ training records lacked documentation that the
                                guards had passed Occupational Safety and Health
Administration training. All 20 of the guards did not have documentation that they had
taken or passed the written examinations.

The contract states “The contractor shall submit to the PO, within ten (10) days of the
ending-preceding month, a detailed monthly training report.”5 The monthly training
report must include test scores, names, type of training, subject matter, number of hours
of instruction, etc. We asked the PO if they had any information that was not in the
individual guard’s employee/training records. The PO stated all the information should
be in the records.

On March 25 and 26, 2003, we reviewed Holiday’s training database. We found that
Holiday only documented when the employees had taken a class. The database lacked
the needed details to determine if training requirements were met.

According to the contract, Holiday was to provide training necessary to qualify in
firearms proficiency in accordance with the firearms requirements contained in the
FLETC Practical Pistol Course.6 The FLETC Practical Pistol Course requires all guards
to fire their weapons at distances of 3, 7, 15 and 25 yards and to fire standing and
kneeling barricade, both left and right sides. The FLETC course also requires that each
participant completes the course by firing 60 rounds and receiving a minimum passing
score of 210.7

                               We reviewed the contractor’s training records for the
    SSA Lacks Assurance        20 randomly selected guards. We found guards were
    Guards Met Firearm         permitted to stand posts without SSA having documented
    Requirements               evidence that the guards met the minimum firearms
                               training requirements. Specifically, the PO did not have
evidence that 10 out of the 20 interviewed guards had passed the FLETC Practical
Pistol Course.

We also obtained voluntary sworn statements from three additional guards. Two guards
stated that they fired 16 and 18 rounds, respectively. The other guard fired the full
60 rounds. All three guards stated they only fired at a single distance.




5
    Contract Number 0600-02-60000 section C-6 (e) “Monthly Training Report.”
6
    Contract Number 0600-02-60000 section C-6 (c) “Armed Security Guard Training Requirements.”
7
 Contract Number 0600-02-60000 section C-6 (c) “Armed Security Guard Training Requirements” and
Attachment E-3 “Federal Law Enforcement Training Center Practical Pistol Course.”


Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                            5
Our review of the contractor’s training records for the 20 interviewed guards found that
most were missing at least half of the required records of training. SSA needs to
increase its monitoring and documentation of the training of the contract guards to
ensure they meet contract requirements.

SSA LACKS ASSURANCE GUARDS WERE PROPERLY SUPERVISED
Post orders described the duties to be performed at each post.8 The Form SSA-4072
was the post sign-in sheet. Supervisors’ post orders required them to sign the Form
SSA-4072 whenever they conduct an inspection of a post. Post orders require that a
supervisor conduct a post inspection at least once per tour of duty for each post.

                            We reviewed 540 tours of duty as documented by the
    Supervisors Were        Forms SSA-4072 for the week of February 23 through
    Not Following the       March 1, 2003. We found there were 403 tours of duty
    Post Orders             during which the Forms SSA-4072 had not been signed by
                            a supervisor. We could not verify whether supervisors were
showing up at the post as required based on the Form SSA-4072. OPSS officials
informed us that they required supervisors to sign the Form SSA-4072 when performing
a post inspection.

Subsequent to our interviews with the 20 guards, we received anonymous phone calls
from individuals representing themselves as guards. They alleged that there had been
shifts when no supervisor had visited their post.

According to the contract specifications, the Forms SSA-4072 were to be submitted to
the PO on a weekly basis for review. Thorough oversight by the PO may have detected
this issue prior to our review.

GUARDS POSTED WITHOUT FIREARMS
The objective of the contract is to acquire armed/unarmed security guard services to
protect people and property at the SSA Main Complex in Woodlawn, Maryland. Post
orders identify guard posts as armed or unarmed. Armed guards must be licensed by
the State of Maryland to carry a firearm.

                            We observed guards not following post orders at the
    Unarmed Guards          garage entrances. Specifically, the post orders identify the
    Staffed Posts           garage entrances as armed guard positions. OIG
    Requiring Firearms      personnel observed instances where guards posted at the
                            garage entrances were not armed despite the requirement
that the garage entrance post was an armed post.


8
  Contract Number 0600-02-60000 section C-8 “Government Provided Material and Guidance,
Instructions and Regulations.”


Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                    6
OPSS officials informed us that in instances where a guard has applied for a firearms
license through the State of Maryland but had not yet received the license, OPSS would
issue a waiver and permit an unarmed guard to occupy an armed position without a
firearm. The waivers were only granted where three guards were in the same location
and the other two guards were armed. However, OIG personnel observed several
instances where two of the three guards at a building entrance were not armed.

We believe that SSA should reevaluate its practice of granting waivers for unarmed
guards to occupy positions that require a firearm.

GUARD BREAKS UNDOCUMENTED
Posts are required to be staffed at all times. Guards are not allowed to leave their posts
for a relief break unless they are relieved by replacement personnel. Relief breaks of
short duration (usually 20 minutes or less) are a common practice in industry and
promote the efficiency and well being of the employee. Holiday’s Chief Operating
Officer stated its policy was to provide all guards who work over 4 hours with a
15 minute break and guards who work over 8 hours with a 30 minute break.

SSA’s contract requires Holiday to provide replacement personnel to cover the guards’
relief breaks. The contract also states that “… failure by the contractor to furnish
required relief breaks to the guard force shall be considered to be a material breach of
contract and may result in termination for default.”9

    Relief Breaks            To determine if relief breaks were given to the guards, in
    Unsubstantiated          accordance with Holiday’s policy, we reviewed
                             30 randomly selected Forms SSA-4072—10 each from the
months of August and December 2002 and February 2003. All guards are required to
sign in and out on the Form SSA-4072 when entering or leaving a post. Based on our
review of the Forms SSA-4072, there was insufficient evidence to substantiate that
Holiday provided relief breaks to all of the guards in accordance with the policy
described to us by Holiday’s Chief Operating Officer. We stratified the results of our
analysis to determine the frequency and length of time guards were at their posts
without a break.




9
    Contract Number 0600-02-60000 section C-5 “Relief and Lunch Breaks.”


Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                7
         Analysis of Continuous Hours Served Without
                           Any Break
        Strata                                                       Occurrences
        4.0 or less hours                                              203
        More than 4.0 but less than or equal to 6.0 hours               56
        More than 6.0 but less than or equal to 8.0 hours              116
        More than 8.0 but less than or equal to 10.0 hours              46
        More than 10 hours                                               9

OPSS officials informed us that supervisors were not to occupy a post while a guard
was on break. There are separate guards whose duties included giving breaks and
these guards are required to sign in when they relieved the stationed guard.

Holiday was required to provide the Forms SSA-4072 to the PO each week. The
Form SSA-4072 indicates the hours worked by security officers and supervisors. These
documents were used by the PO to verify compliance with the work hour requirements
of the contract. A more thorough review of this documentation by SSA personnel may
have detected and corrected this deficiency prior to our review.

In our opinion, SSA should monitor Holiday’s implementation of its break policy more
closely.

GUARDS NOT CHECKING BADGES
Each post had a set of instructions that defined the basic work that needed to be
performed at the post. These instructions were called post orders. For building
entrance posts, guards are to check the badges of SSA employees entering the building
by looking at the picture on the badge. They are also to send briefcases or purses
through the metal detection scanners. Contractor employees are required to print and
sign their name on one side of the color-coded temporary pass, which include “R” (for
rolodex). The guards are required to verify the identification of individuals on the
Rolodex before issuing a temporary paper badge. Procedures also state that the
badges must be returned upon exiting the building. Without this control, unauthorized
individuals could gain access to SSA by posing as individuals on the Rolodex.

                              Based on our observations of several posts, we noticed
 Guards Were Not              that many of the guards were not rigorously checking
 Checking Identification      employees’ badges. Many SSA employees were able to
                              walk into SSA with their badges backwards or hidden
from view without guards stopping them. Additionally, we noticed that some guards
were not watching or paying attention to the items that were being scanned.

A different SSA on-site contractor informed us that guards were not checking personal
identification before rolodex badges were given to contract employees. That contractor
stated that a contractor employee was able to enter the building with the same color “R”


Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                 8
badge in use that day even though it was stamped with an older date. In addition, the
badge was not signed and the guard did not ask for identification from the employee.
Noncompliance with post orders is a violation of the contract terms.

OPSS officials informed us that there is a certain [unspecified] error rate expected with
guard badge inspections. However, OPSS assured us that they conduct tests of the
guards’ performance in this and other areas. OPSS also reminded us that employees
accessing the building are responsible for assuring their badges are in plain view. SSA
should provide further emphasis to Holiday that guards should follow badge verification
procedures.

OTHER MATTERS
During our audit, other important issues arose which concerned us. Accordingly, we are
presenting these as other matters with respect to our report. Nevertheless, we request
SSA’s management response on the issues presented in this section.

BADGING SYSTEM NEEDS MODERNIZATION TO DETER REAL AND POTENTIAL
THREATS

Recently, a complainant sent an allegation to the General Accounting Office (GAO)
questioning the competency of procedure and the security guards assigned to process
visitors through metal detectors at the SSA Altmeyer Building main entrance. The
allegation was forwarded by GAO to our Office of Investigations, Allegation
Management Division. That office referred the allegation to the Office of Audit for
follow-up.

The complainant was visiting the SSA Altmeyer Building to attend a class. During the
time (approximately 1 hour and 15 minutes) the complainant was waiting for associates
to arrive to sign her/him into the building, the complainant alleged at least 75 or more
people went through the metal detector in the lobby area. Many of these people
(50-60 percent) caused the metal detector to sound. The complainant also observed a
security guard posted beside the detector. The complainant alleged the only time
anyone was inspected by the subject guard, after the detector alarm sounded, was if
they stood, held their arms out, and waited for the guard to inspect them with a hand-
held device. The complainant alleged this is an abuse of Federal dollars, not to mention
providing a false sense of “security” for the building.

Our observations during this audit indicated that, though the complainant’s observations
may have been correct, her/his conclusions may not be totally accurate. Security post
procedures do not require persons displaying SSA employee badges be screened
through the metal detectors at building entrances. Our observations showed that
although employees are not required to walk through the metal detectors, many
employees did walk through them as it was often the shortest route.




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                9
Guards do not stop employees for secondary screenings with a hand-held device, even
though the detector has sounded an alert. We believe the complainant was observing
persons displaying employee badges entering the metal detector from a rear view.
Further, the complainant may not have been able to see the badges from his/her
vantage point in the Altmeyer visitor lobby. Therefore, we believe the complainant may
have been observing normal procedure.

However, the complainant’s observation does bring up a significant concern. We
observed that SSA security guards allow people with employee badges to pass through
building entrances without screening. Further, persons with employee badges passing
through and alerting the metal detector were not submitted to any additional security
steps, such as a search or electronic hand wanding.10 The current security procedure
relies on the employee badge displayed as the sole document for allowing unscreened
entry into the SSA main complex premises.

The employee badges used at SSA Headquarters appear to be easy to counterfeit and
or exchange with other persons. This condition, coupled with numerous observations
and allegations of persons entering the premises with badges not displayed, raises
concern about the adequacy of the guard post security procedure in effect at the SSA
Headquarters main complex.

We believe the current security procedure is antiquated and inadequate to reasonably
prevent unauthorized persons from entering the premises, including those intent on
performing acts of terrorism, sabotage or other criminal acts. We understand that
security procedures are a cost versus benefit or risk management decision and are also
one of efficiency of entry. The security environment has changed since
September 11, 2001, and, as a result, revised security entrance procedures are
needed. We believe that SSA should give serious consideration to revising its security
entrance process at the SSA Headquarters main complex.

NOTIFICATION TO OIG CONCERNING INCIDENTS OCCURRING ON SSA
PREMISES

There have been instances where security guards were investigated and or arrested for
alleged criminal acts or other complaints occurring on SSA’s main complex. For
example, during our audit, SSA filed a theft complaint with the General Services
Administration Federal Protective Service (FPS). FPS investigated SSA’s complaint
and subsequently arrested guard personnel. SSA did not notify OIG of the complaint or
the arrest.

While FPS has concurrent jurisdiction on matters involving thefts occurring on
Government property, the OIG takes criminal activity very seriously and is authorized to
investigate all crimes concerning SSA. The Inspector General Act of 1978, as
amended, (5 U.S.C. App 3), established the Office of Inspectors General to combat and


10
     Hand wanding refers to the use of a hand-held metal detector.


Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)               10
investigate matters of fraud, waste, and abuse in their respective agencies. This
includes thefts occurring on Government property.

Incidents such as these should not go unreported to the OIG. OPSS should contact the
Special Agent-in-Charge of the Philadelphia Field Division at (215) 521-0317 to report
incidents occurring within the Central Office and the Baltimore areas.




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)              11
                                                  Conclusions and
                                                 Recommendations
We determined that SSA needs to strengthen its monitoring of the main complex guard
service contract and to require Holiday to adhere to the contract terms and conditions.


RECOMMENDATIONS

We recommend SSA:

1. Develop policies and procedures that ensure suitability redeterminations are
   performed in a timely manner;

2. Ensure guards without required training do not staff guard positions and increase its
   review and documentation of the training of contract guards;

3. Increase its monitoring of supervisors’ post inspections;

4. Reevaluate its policy of granting waivers that allow unarmed guards to staff posts
   requiring armed guards;

5. Strengthen how it monitors Holiday’s implementation of its break policies; and

6. Provide further emphasis to Holiday that guards should follow badge verification
   procedures.

AGENCY COMMENTS
SSA agreed with our recommendations. Specifically, SSA informed us that they
modified the automated suitability tracking system to inform management when
suitability redeterminations are required. SSA also informed us that management has
increased supervision of the guard contract.




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                  12
                                          Appendices




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)
                                                                         Appendix A

Agency Comments




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)
                                        SOCIAL SECURITY

MEMORANDUM                                                                         32296-24-985


Date:     December 4, 2003                                                   Refer To: S1J-3

To:       James G. Huse, Jr
          Inspector General

From:     Larry W. Dye     /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, “Performance Audit of the Social
          Security Administration’s Main Complex Guard Contract” (A-15-03-23043)--
          INFORMATION


          We appreciate the OIG's efforts in conducting this review. Our comments on the report
          content and recommendations are attached.

          Please let us know if we can be of further assistance. Staff questions can be referred to
          Trudy Williams at extension 50380.

          Attachment:
          SSA Response




          Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                  A-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON
THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“PERFORMANCE AUDIT OF THE SOCIAL SECURITY
ADMINISTRATION’S MAIN COMPLEX GUARD CONTRACT”
(A-15-03-23043)


Thank you for the opportunity to review and comment on the subject draft report.

OIG’s objective for this audit was to determine whether SSA’s Office of Facilities Management
(OFM) properly monitored its guard contract for SSA’s main complex and whether the contractor
complied with the contract terms and applicable regulations. OIG conducted the audit from
November 2002 through August 2003.

The Office of Acquisitions and Grants (OAG) has responsibility for SSA procurement and
contracting functions. OAG's contracting officer is responsible for awarding and administering
guard service contracts. On April 21, 2002, OAG awarded a 1-year fixed–price contract with
four 1-year options to Holiday International, Incorporated (Holiday) to provide guard services at
SSA's main complex in Woodlawn, Maryland. The then management of OFM was responsible
for monitoring the contract through the project officer (PO) with Holiday. Toward the end of the
audit period, a new company, USProtect, acquired Holiday in June 2003. OFM’s new
management team is responsible for monitoring the continuation of the contract with USProtect.


SSA’s Office of Protective Security Services utilizes contract guard services to protect SSA’s
Main Complex facilities. Currently, SSA contracts with USProtect to provide contract guard
services. The Main Complex guard contingency consists of approximately 210 guard personnel
that provide onsite security services. This service covers a wide variety of tasks to safeguard
SSA personnel and property, including: access control, emergency response, operation of
electronic screening devices, reporting incidents, control center operations, loading dock
operations, package inspection, traffic control, mobile patrols, while maintaining a safe and
orderly working environment.

SSA’s Main Complex facility is accessed daily by approximately 10,000 persons. All persons
accessing facilities are required to display a valid access badge and have all containers and
packages electronically or visually inspected in order to comply with the General Services
Administration and SSA rules and regulations.

SSA’s project officer (PO) provides daily administrative oversight for the new USProtect guard
service contract. The PO coordinates activities with the responsible USProtect manager of the
guard contract to ensure that required service is in accordance with contractual requirements.
SSA’s PO also coordinates activities with the respective OAG contracting officer to develop
standard operating procedures, special orders and contract modifications. They also coordinate
access for special events, monitor guard post operations, observe and document guard
performance, act as a liaison and point of contact for building occupants on security operations



Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                        A-2
including handling emergency response, and coordinate with Federal Protective Service and/or
local law enforcement personnel.

Our response to the specific recommendations is provided below:


Recommendation 1

SSA should develop policies and procedures that ensure suitability redeterminations are
performed in a timely manner.

SSA Comment

We agree. We modified the automated suitability tracking system to produce periodic reports to
inform management when suitability redeterminations for guards are required. Once alerted, we
will perform redeterminations timely to meet the required 2 year redetermination period.


Recommendation 2

SSA should ensure guards without required training do not staff guard positions and increase its
review and documentation of the training of contract guards.


SSA Comment

We agree. On September 17, 2003, SSA’s PO and alternate POs met with USProtect
management to address guard training and guard post staffing. The SSA PO required USProtect
management to provide documentation that all guards have successfully completed the
contractually required training (e.g., bollard operation, screening devices and control center
operations, cardiopulmonary resuscitation, first aid, fire arms, etc).

Further, On October 7, 2003, OFM management, OAG representatives, and SSA’s PO met with
USProtect’s guard management to reiterate the requirement for adequate training, training
documentation requirements, and staffing for guard posts. USProtect’s management has
improved the required training and training documentation, and SSA’s PO has increased the
monitoring of guard performance. Those guards found in need of refresher training are being
referred to USProtect management for additional training. USProtect guard management is
required to forward documentation of the completed refresher training to the SSA PO.

SSA has also increased the supervision of the guard contract by increasing periodic monitoring
of actual guard training courses, firing qualifications and guard post operations. Furthermore,
SSA will closely scrutinize contractor-prepared monthly training reports to ensure details have
been adequately captured in line with contract requirements and to compare contractor prepared
documentation with government initiated field observations.




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                       A-3
Recommendation 3

SSA should increase its monitoring of supervisors’ post inspections.


SSA Comment

We agree. On September 17, 2003, SSA’s PO and alternate POs sent a reminder to USProtect
that all supervisors must perform daily post inspections for all posts and document this activity
on the SSA-4072, Contract Guard Duty Register. The SSA PO has increased routine reviews of
the forms SSA-4072 for compliance.

SSA’s POs frequently observe various post operations to ensure that guards and supervisors are
following guard post procedures. We will continue to closely scrutinize the contractor-prepared
forms SSA-4072 on a weekly basis with regard to post inspections performed during tours of
duty. Upon completion of weekly reviews, SSA’s PO will discuss any perceived abnormalities
and issues with OAG and the contractor.

Recommendation 4

SSA should reevaluate its policy of granting waivers that allow unarmed guards to staff posts
requiring armed guards.


SSA Comment

We agree. We have taken immediate action to notify the guard contractor that the practice of
granting waivers for unarmed guards to staff posts will not be permitted. However, to minimize
negative impacts, we permitted the contractor a 90-day period commencing December 15, 2003,
to staff armed guard posts with unarmed guards. After the 90-day period, February 15, 2004, no
waivers will be granted.


Recommendation 5

SSA should strengthen how it monitors Holiday’s implementation of its break policies.


SSA Comment

We agree. On October 7, 2003, OFM and OAG management discussed break polices with
USProtect and reiterated that appropriate breaks should be given to guards and documented on
the appropriate form. To ensure that this practice continues, OFM will implement further review
of the SSA- 4072s by an alternate PO to ensure that breaks are provided and documented.




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                          A-4
Recommendation 6

SSA should provide further emphasis to Holiday that guards should follow badge verification
procedures.


SSA Comment

We agree that the guards were lax in their execution of the security entrance procedures in
instances identified by OIG observations. OFM management reiterated the importance of
reinforcing these procedures with the guards of USProtect. The PO monitors the security
entrance procedures and reports any instances of noncompliance. Finally, SSA will issue a
Security Bulletin by January 2004 to all headquarters employees reminding them of their
responsibility to display their badges properly.




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)                        A-5
                                                                         Appendix B
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Frederick C. Nordhoff, Director, Finance Audit Division, (410) 966-6676

   Lance Chilcoat, Manager, Finance Audit Division, (410) 965-9743

Acknowledgments
In addition to those named above:

   Suzanne Valett, Lead Auditor

   Jacqueline Patel, Auditor

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-15-03-23043.




Performance Audit of SSA’s Main Complex Guard Contract (A-15-03-23043)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                       Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.
                                       Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                  Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
